CAPITAL CASE
No. 19-411
IN THE

Supreme Court of the United States

d
RODNEY REED ,

Petitioner,

—v.—

TEXAS ,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE COURT OF CRIMINAL APPEALS OF TEXAS

BRIEF FOR AMICUS CURIAE
THE CONSTITUTION PROJECT AT THE
PROJECT ON GOVERNMENT OVERSIGHT
IN SUPPORT OF PETITIONER

SARAH TURBERVILLE
THE CONSTITUTION PROJECT
AT THE PROJECT ON
GOVERNMENT OVERSIGHT
1100 G Street, NW, Suite 500
Washington, DC 20005

JUSTIN S. WEDDLE
Counsel of Record
JULIA I. CATANIA
WEDDLE LAW PLLC
250 West 55th Street,
30th Floor
New York, New York 10019
(212) 997-5518
jweddle@weddlelaw.com

Counsel for Amicus Curiae

i
TABLE OF CONTENTS
INTEREST OF THE AMICUS CURIAE ............................... 1
SUMMARY OF THE ARGUMENT ....................................... 2
STATEMENT OF THE CASE ............................................. 4
ARGUMENT .................................................................... 7
I.

REED’S CASE IS SIMPLY ABOUT PROCEDURAL
FAIRNESS ................................................................ 7

II. THE BRADY MATERIALITY ANALYSIS
CONTEMPLATES A DEFENDANT’S
USE OF SUPPRESSED EVIDENCE IN A
HYPOTHETICAL TRIAL .......................................... 11
III. REED’S CONFRONTATION CLAUSE RIGHT REQUIRES
THAT FENNELL’S TRIAL TESTIMONY BE
DISREGARDED IN DECIDING
BRADY MATERIALITY ............................................ 14
IV. A PROPER BRADY ANALYSIS THAT INCORPORATES
THE CONFRONTATION CLAUSE RESULT COMPELS A
FINDING OF MATERIALITY .................................... 17
CONCLUSION ............................................................... 18

ii
TABLE OF AUTHORITIES
Cases
Bagby v. Kuhlman,
932 F.2d 131 (2d Cir. 1991) ............................... 15
Brady v. Maryland,
373 U.S. 83 (1963) ................................................ 3
Brown v. United States,
356 U.S. 148 (1958) ............................................ 16
Cone v. Bell,
556 U.S. 449 (2009) ....................................... 11-12
Crawford v. Washington,
541 U.S. 36 (2004) ..................................... 8-10, 14
Klein v. Harris,
667 F.2d 274 (2d Cir. 1981) ............................... 14
Kyles v. Whitley,
514 U.S. 419 (1995) ...................................... 10, 12
Mitchell v. United States,
526 U.S. 314 (1999) ............................................ 16
Pointer v. Texas,
380 U.S. 400 (1965) ............................................ 14
Rodriguez v. State,
513 S.W.2d 594 (Tex. Crim. App. 1974) .............. 6
Rogers v. United States,
340 U.S. 367 (1951) ............................................ 16
Strickler v. Greene,
527 U.S. 263 (1999) ............................................ 12
Turner v. United States,
137 S. Ct. 1885 (2017) ................................... 11-12

iii
United States v. Agurs,
427 U.S. 97 (1976) .............................................. 11
United States v. Bagley,
473 U.S. 667 (1985) ........................................ 7, 10
United States v. St. Pierre,
132 F.2d 837 (2d Cir. 1942), dismissed as moot,
319 U.S. 41 (1943) ................................................ 6
Williams v. State,
800 S.W.2d 364 (Tex. App. 1990) ........................ 6
Wood v. Bartholomew,
516 U.S. 1 (1995) ........................................... 11-12
Other Authorities
The Constitution Project, Irreversible Error:
Recommended Reforms for Preventing and
Correcting Errors in the Administration of
Capital Punishment (2014) .................................. 2

1
INTEREST OF THE AMICUS CURIAE 1
The Constitution Project at the Project On Government Oversight works to ensure due process and
fairness in the criminal justice system as a key part of
its mission to seek consensus-based solutions to contemporary constitutional issues. The Constitution
Project is deeply concerned with the preservation of
our fundamental constitutional guarantees and ensuring that those guarantees are respected and enforced by all three branches of government. Accordingly, the Project regularly files amicus briefs in this
Court and other courts in cases, like this one, that implicate its nonpartisan positions on constitutional issues, in order to better apprise courts of the importance and broad consequences of those issues.
The Project takes no position on the abolition or
maintenance of the death penalty. Rather, it focuses
on forging consensus-based recommendations aimed
at achieving the common objectives of justice for both
victims of crimes and for those accused of committing
crimes. In May 2001, the Project’s Death Penalty Initiative convened a blue-ribbon committee including
Pursuant to this Court’s Rule 37.6, this brief was not authored
in whole or in part by counsel for any party and no person or
entity other than the amicus curiae or its counsel made a monetary contribution intended to fund the preparation or submission
of this brief. Pursuant to this Court’s Rule 37.2(a), both parties
received timely notice of the intent to file this brief and have consented to its filing.
1

2
supporters and opponents of the death penalty, Democrats and Republicans, former judges, prosecutors,
defense lawyers, victim advocates, and others, to examine issues related to the administration of the
death penalty. 2 The committee issued reports in 2001,
2005, and 2014, the most recent of which makes 39
recommendations that the committee believes are essential to reducing the risk of wrongful capital convictions and executions. A common underpinning of
many of those recommendations is the importance of
cross-examination to ensure the accuracy and integrity of evidence presented in capital trials. See The
Constitution Project, Irreversible Error: Recommended Reforms for Preventing and Correcting Errors
in the Administration of Capital Punishment (2014).
SUMMARY OF THE ARGUMENT
The Texas Court decided an important federal
question¾Rodney Reed’s Brady arguments relating
to a suppressed prior inconsistent statement of Jimmy
Fennell, the State’s chief witness and a prime suspect
in the murder of Fennell’s fiancée¾in a manner that
not only conflicts with relevant decisions of this Court,
but that compounded Reed’s Brady injury with a violation of his Confrontation Clause rights. The error

A complete list of the members of the Project’s Death Penalty
Committee, which included a former Governor of Texas at the
time its most recent report was published, is reproduced in the
appendix to this brief.
2

3
could not be more significant: Rodney Reed faces
death without being afforded the fair process that undergirds both the Brady rule and the Confrontation
Clause.
Under Brady v. Maryland, 373 U.S. 83 (1963),
lower courts reviewing the materiality of suppressed
evidence are required to hypothesize how a trial would
have looked if the exculpatory evidence had been disclosed in a timely manner and not suppressed. Because what is hypothesized is a trial (meaning, the
process by which American courts determine innocence or guilt), the Brady analysis depends on how the
evidence would have been used in the context of the
case.
The primary use to be made of the evidence at issue here was to confront Fennell through cross-examination. Fennell refused to be confronted, however; he
invoked his Fifth Amendment right to refuse to answer questions on all topics relevant to his trial testimony and the facts of the case. Therefore, in a hypothetical trial free of Brady violations, it is clear that
Fennell either would never have testified, or, having
testified, would have refused to be confronted. Under
established Confrontation Clause principles, the result is equally clear: Fennell’s testimony (if any) would
have been stricken upon his refusal to be cross-examined about it. In other words, the exculpatory evidence
(Fennell’s prior inconsistent statement), if used at a
trial, would eliminate Fennell’s testimony from that

4
trial record. There is far more than the requisite “reasonable probability” that the outcome of a trial without Fennell (and without faulty scientific and forensic
evidence) would be different.
The Texas Court did not engage in this analysis.
Instead, it took the evidence presented at trial as
fixed, added to it any additional evidence developed at
the evidentiary hearing, and decided materiality
based on its own implicit reliability assessment of
Fennell’s trial testimony. The Texas Court ignored
Fennell’s refusal to be confronted by his prior inconsistent statement, and the Texas Court permitted
Fennell’s trial testimony to stand, un-cross-examined,
due to the State’s suppression of exculpatory evidence.
The Texas Court’s actions added insult to injury, or,
more precisely, added a Confrontation Clause violation to a Brady violation, a Sixth Amendment violation to a Fifth. The Court should grant the petition
and remedy this miscarriage of justice.
STATEMENT OF THE CASE
Eighteen years after Reed’s conviction and sentence to death for the murder of Stacey Stites, he discovered that the State’s chief witness (and a prime
suspect in the murder), Fennell, told his friend,
Bastrop County Sheriff’s Officer Curtis Davis, on
April 23, 1996—before Stites’s body was discovered,
but after she had been reported missing¾that he had
been out late drinking with other officers the night of

5
her disappearance. (Pet. at 11.) This statement contradicted Fennell’s trial testimony that he was home
with Stites until she left for work at approximately 3
a.m. Id. at 12-13. The State used Fennell’s testimony
to establish the timeline from which all other conclusions about Stites’s murder were built. Id. Fennell testified that Stites was alive and at home until about 3
a.m. and that they did not have sex and took a shower
on the evening of August 22, 1996. Id. From those assertions (and faulty scientific and forensic testimony),
the State claimed that Stites must have been murdered sometime after 3 a.m. and that the murder had
to have coincided with sex because of the presence of
spermatozoa (faulty science claimed that spermatozoa
do not last for more than approximately 24 hours), and
that therefore, the sex was not consensual, and that
therefore, the participant in the sex was the murderer.
Id. According to this logic, by identifying Reed’s DNA
on Stites, the State claimed to have identified her
killer. Id.
Although Officer Davis—a member of the lead investigative agency conducting the investigation into
Stites’s disappearance and eventually, her murder—
did not choose to write a report about Fennell’s April
23, 1996 statements, in 2016 he conducted a videotaped interview with CNN in which he disclosed what
Fennell had told him. Id. at 11. Through this interview, Reed discovered that the Bastrop County Sheriff’s Office had suppressed relevant impeachment material related to Fennell’s trial testimony years

6
earlier. Id. at 11-12. The significance of the suppression did not go unnoticed by the Texas Criminal Court
of Appeals, which found that Mr. Reed had made the
requisite showing to obtain a hearing on his Brady
claim and remanded the case to the District Court for
an evidentiary hearing. Id. at 12.
At the evidentiary hearing, Fennell refused to be
confronted through cross-examination and asserted
his Fifth Amendment privilege against self-incrimination. Id. at 13-14. The District Court drew no adverse
inference3 from Fennell’s refusal, and ultimately
The State’s request that “no adverse inference be taken” is perplexing in the context of Reed’s evidentiary hearing. First, Texas
State court practice prohibits drawing an adverse inference
against a witness when the witness pleads the Fifth in the context of a jury trial. See Williams v. State, 800 S.W.2d 364, 367
(Tex. App. 1990) (finding that a court does not commit reversible
error when denying defendant the right to have the jury watch a
witness invoke his Fifth amendment privilege); Rodriguez v.
State, 513 S.W.2d 594, 595 (Tex. Crim. App. 1974) (affirming the
lower court’s decision to deny defendant’s motion seeking “to
have the jury view the witnesses’ invoking of the Fifth Amendment”). This was not a jury trial, but a court hearing to determine
whether to conduct a new jury trial. Second, once a witness, such
as Fennell, has already testified on direct, regardless of any inferences to be drawn or not, the Confrontation Clause provides a
separate analysis and a specific remedy for a witness’s refusal to
be cross-examined about his direct testimony¾the testimony is
stricken. See infra Part III; see also United States v. St. Pierre,
132 F.2d 837, 840 (2d Cir. 1942), dismissed as moot, 319 U.S. 41
(1943) (“It must be conceded that the privilege is to suppress the
truth, but that does not mean that it is a privilege to garble it;
3

7
found no Brady violation in an opinion in which it accepted the State’s Findings of Facts and Conclusions
of Law that did not mention that the State’s chief trial
witness invoked his Fifth Amendment right in refusing to testify at the hearing. Id. at 14. In other words,
Fennell’s trial testimony was left unchanged and uncross-examined regarding this prior inconsistent
statement.
ARGUMENT
I.

REED’S CASE IS SIMPLY ABOUT PROCEDURAL
FAIRNESS

The Fifth and Sixth Amendments (made applicable to this case through the Fourteenth) are cornerstones of American criminal law that were established
to guard against precisely what happened to Reed. See
United States v. Bagley, 473 U.S. 667, 675 (1985)
(“The Brady rule is based on the requirement of due
process. Its purpose is not to displace the adversary
system as the primary means by which truth is uncovered, but to ensure that a miscarriage of justice does
not occur”); Crawford v. Washington, 541 U.S. 36, 42
although its exercise deprives the parties of evidence, it should
not furnish one side with what may be false evidence and deprive
the other of any means of detecting the imposition. The time for
a witness to protect himself is when the decision is first presented
to him; he needs nothing more, and anything more puts a mischievous instrument at his disposal.” (emphasis added)).

8
(2004) (clarifying that the Sixth Amendment’s guarantee of a defendant’s right to confront witnesses
against him or her is a “bedrock procedural guarantee”). The intersection of the two Amendments in this
case reveals their common foundation: that defendants in American courts should not be subjected to an
unfair process; the Constitution is silent on outcomes.
In this way, Reed’s case requires this Court to reaffirm
its commitment to fair process for defendants (in particular, those sentenced to death) by means of applying the Brady rule in addition to the right to confrontation.
In Crawford, Justice Scalia expounded the long
history of a defendant’s right to confrontation, which
dates back to Roman times, but more importantly, is
a steadfast Founding principle. Crawford, 541 U.S. at
43. As part of the exposition, Justice Scalia discussed
the “most notorious instance[] of civil-law examination[s]” that befell Sir Walter Raleigh when he was on
trial for treason during “the great political trials of the
16th and 17th centuries.” Id. at 44. Sir Walter Raleigh
demanded that the chief witness against him be called
to appear in person, stating that “‘[t]he proof of the
Common Law is by witness and jury: let Cobham be
here, let him speak it. Call my accuser before my
face.’” Id. (quoting Raleigh’s Case, 2 How. St. Tr. 1, 1516 (1603)). Nevertheless, Sir Walter Raleigh was convicted and sentenced to death without having the opportunity to personally confront his accuser. Id. Justice Scalia noted: “One of Raleigh’s trial judges later

9
lamented that ‘the justice of England has never been
so degraded and injured as by the condemnation of Sir
Walter Raleigh.’” Id. (quoting 1 D. Jardine, Criminal
Trials 520 (1832)). This same fear of the degradation
of the criminal process inspired the Framers to protect
a defendant’s right to test the truth of his accusers’
statements against him, in-person. Id. at 43 (“The
founding generation’s immediate source of the concept, however, was the [English] common law. . . .
[that] at times adopted elements of the civil-law practice [in which] . . . examinations were sometimes read
in court in lieu of live testimony.” (citing 3 W. Blackstone, Commentaries on the Laws of England 373-74
(1768), and 1 J. Stephen, History of the Criminal Law
of England 326 (1883))).
Crawford traced this history to demonstrate that
the Framers chose cross-examination and confrontation, not judicial assessments of reliability, as the
measure of fairness. As Justice Scalia explained: “To
be sure, the Clause’s ultimate goal is to ensure reliability of evidence, but it is a procedural rather than a
substantive guarantee. It commands, not that evidence be reliable, but that reliability be assessed in a
particular manner: by testing in the crucible of crossexamination.” Id. at 61. The Court continued: “Dispensing with confrontation because testimony is obviously reliable is akin to dispensing with jury trial because a defendant is obviously guilty. This is not what
the Sixth Amendment prescribes.” Id. at 62.

10
Similarly, the Brady inquiry is most concerned
with whether the way a trial was conducted was fair.
In Bagley, Justice Blackmun explained that Brady’s
purpose is to facilitate a process by which “truth is uncovered” and “to ensure that a miscarriage of justice
does not occur.” 473 U.S. at 675. Thus, a crucial element of the procedural fairness of trials, Justice
Blackmun noted, is the prosecutor’s duty “to disclose
evidence favorable to the accused that, if suppressed,
would deprive the defendant of a fair trial.” Id. In
Kyles v. Whitley, 514 U.S. 419 (1995), Justice Souter
reiterated this constitutional guarantee to a fair trial,
stating that Brady disclosures “serve to justify trust
in the prosecutor as the representative . . . . of a sovereignty . . . whose interest . . . in a criminal prosecution is not that it shall win a case, but that justice
shall be done.” Id. at 439-40 (internal quotation marks
omitted).
In this way, the Brady rule and the Confrontation
Clause reflect a single choice¾to select the trial process as the means of ensuring reliability of the criminal justice system. The Brady inquiry does this by
measuring materiality against a hypothetical trial using the exculpatory evidence, and the Confrontation
Clause does this by requiring in-person testing of the
truth through cross-examination. To do otherwise—as
the State of Texas did in Reed’s case—is to subject a
defendant to “the most flagrant inquisitorial practice[].” Crawford, 541 U.S. at 51.

11
II. THE BRADY MATERIALITY ANALYSIS CONTEMPLATES A DEFENDANT’S USE OF SUPPRESSED EVIDENCE IN A HYPOTHETICAL TRIAL
This Court has consistently held that the Brady
materiality standard requires courts to “examine the
trial record, ‘evaluat[e]’ the withheld evidence ‘in the
context of the entire record’ and determine in light of
that examination whether ‘there is a reasonable probability that, had the evidence been disclosed, the result of the proceeding would have been different.’”
Turner v. United States, 137 S. Ct. 1885, 1893 (2017)
(alteration in original) (quoting first United States v.
Agurs, 427 U.S. 97, 112 (1976), and then Cone v. Bell,
556 U.S. 449, 470 (2009)). In other words, when faced
with the discovery of suppressed exculpatory evidence, this Court considers how that evidence would
have been used at a hypothetical, suppression-free
trial.
For example, in Wood v. Bartholomew, 516 U.S. 1
(1995), this Court reviewed the Ninth Circuit’s reversal of “the District Court’s denial of habeas relief
based on its speculation that the prosecution’s failure
to turn over the results of a polygraph examination of
a key witness, might have had an adverse effect on
pretrial preparation by the defense.” Id. at 2. This
Court reasoned that results of the polygraph were “not
‘evidence’ at all” because they would have been inadmissible under state law at trial, and therefore, were
not reviewable for Brady materiality purposes. Id. at

12
6. This Court explained: “Disclosure of the polygraph
results, then, could have had no direct effect on the
outcome of trial, because respondent could have made
no mention of them either during argument or while
questioning witnesses.” Id. (emphasis added). See also
Turner, 137 S. Ct. at 1893 (“[E]vidence is material
within the meaning of Brady when there is a reasonable probability that, had the evidence been disclosed,
the result of the proceeding would have been different.” (quoting Cone, 556 U.S. at 469-70 (2009)) (internal quotation marks omitted, alteration in original));
Strickler v. Greene, 527 U.S. 263, 281 (1999)
(“[S]trictly speaking, there is never a real ‘Brady violation’ unless the nondisclosure was so serious that
there is a reasonable probability that the suppressed
evidence would have produced a different verdict.”);
Kyles, 514 U.S. at 434 (reaffirming that Brady materiality “is not [based on] whether the defendant would
more likely than not have received a different verdict
with the evidence, but whether in its absence he received a fair trial, understood as a trial resulting in a
verdict worthy of confidence” (internal quotation
marks omitted)).
Here, in such a hypothetical trial, the primary use
to be made of the suppressed evidence at issue would
be to confront, through cross-examination, Fennell,
one of the chief witnesses at the trial and also a prime

13
suspect in the murder of his fiancée.4 The Brady hearing demonstrates what would have happened in such
a trial: Fennell would refuse to be confronted on all
topics relevant to his trial testimony and the facts of
the case.

To be sure, the primary use to be made of Fennell’s prior statement to Officer Davis is confrontation of Fennell, but the statement is also admissible for other purposes. For example, Fennell’s statement to Officer Davis could be elicited from Officer
Davis because it is probative of Fennell’s guilt of the murder and
his guilty knowledge. Fennell made the statement to Officer Davis before Stites’s body was found. He did not then know that
bogus science would fix the time of death at approximately 3 a.m.
Therefore, Fennell’s statement appears to be a false attempt to
create an alibi for a murder he committed earlier in the night
(such as before midnight, as the true science demonstrates). Both
the District Court and the State appeared to believe (incorrectly)
that the defense sought, through that statement, to prove its
truth regarding the time that Fennell returned home or the time
that Stites went to bed. Thus, the State questioned other witnesses in a manner designed to show that Fennell returned home
early or was not drinking. (App. to Pet. at 11a, 24a). These efforts
to discredit Fennell’s statement to Officer Davis only provide further confirmation that (1) Fennell is the likely killer who was (2)
concocting an alibi for the true time of death (an alibi abandoned
when the State adopted his false timeline). After all, the true
killer knows the true time of death, and if he was inclined to concoct an alibi in the 24 hours following that death, would concoct
one that related to the true time of death, not the State’s incorrect 3 a.m. time of death.
4

14
III. REED’S CONFRONTATION CLAUSE RIGHT REQUIRES THAT FENNELL’S TRIAL TESTIMONY BE
DISREGARDED IN DECIDING BRADY MATERIALITY

Fennell was a key witness who refused to be crossexamined on the subject matter of his trial testimony,
and therefore, in a hypothetical trial free from suppression of exculpatory evidence, the Confrontation
Clause would require that his testimony be disregarded.
It is a fundamental principle that “[t]he failure of
the trial judge to take . . . corrective action” against a
witness, who having testified on direct examination,
then invokes his or her Fifth Amendment privilege
and refuses to be cross-examined, “deprives the defendant of his sixth amendment right of confrontation.” Klein v. Harris, 667 F.2d 274, 289 (2d Cir. 1981);
see also Crawford, 541 U.S. at 42 (stating that the
Sixth Amendment’s confrontation right is a “bedrock
procedural guarantee [that] applies to both federal
and state prosecutions.” (citing Pointer v. Texas, 380
U.S. 400, 406 (1965))). Thus, when confronted with a
witness’s invocation of his or her Fifth Amendment
privilege against self-incrimination at a proceeding,
courts must inquire whether the invocation gives rise
to a confrontation clause violation because “the sixth
amendment is violated only when assertion of the privilege undermines the defendant’s opportunity to test
the truth of the witness’ direct testimony.” Bagby v.

15
Kuhlman, 932 F.2d 131, 135 (2d Cir. 1991) (emphasis
added).
Courts “reconcile a defendant’s rights under the
confrontation clause with a witness’ assertion of the
fifth amendment privilege” by considering the following two questions: “(1) whether the matter about
which the witness refuses to testify is collateral to his
or her direct testimony, and (2) whether the assertion
of the privilege precludes inquiry into the details of his
or her direct testimony.” Id. (emphasis in original).
Therefore, “the sixth amendment is violated when a
witness asserts the privilege with respect to a non-collateral matter and the defendant is deprived of a
meaningful opportunity to test the truth of the witness’ direct testimony.” Id. This is precisely what transpired when Fennell, the State’s chief witness who established the State’s timeline for the murder, refused
to be cross-examined by Reed with the suppressed impeachment material.
The remedy for a Confrontation Clause violation
is also clear—the court must deem the privilege
against self-incrimination to be waived and “should
compel the witness to respond to the defense’s crossexamination. . . . or if the witness simply refuses to
testify, the witness’ direct testimony should be
stricken in whole or in part.” Id. Significantly, the extent of the “waiver is determined by the scope of relevant cross-examination. . . . The witness himself, certainly if he is a party, determines the area of

16
disclosure and therefore of inquiry.” Brown v. United
States, 356 U.S. 148, 154-55 (1958). What this means
is that “[a] witness may not pick and choose what aspects of a particular subject to discuss without casting
doubt on the trustworthiness of the statements and
diminishing the integrity of the factual inquiry” because this “‘would open the way to distortion of facts
by permitting a witness to select any stopping place in
the testimony.’” Mitchell v. United States, 526 U.S.
314, 322 (1999) (quoting Rogers v. United States, 340
U.S. 367, 371 (1951)). Said another way, it would, “as
[this Court] said in Brown, ‘make of the Fifth Amendment not only a humane safeguard against judicially
coerced self-disclosure but a positive invitation to mutilate the truth a party offers to tell.’” Id. (quoting
Brown, 356 U.S. at 156).
Here, the Texas Court has permitted the truth of
who murdered Stites to be mutilated. The only permissible way, under the Constitution and this Court’s
precedent, to seek and find truth in the criminal process is to conduct the Confrontation Clause analysis
whenever a defendant’s right to cross-examine is at
stake; in particular, when those situations overlap
with Brady violations. Had this analysis been conducted by the Texas Court, Fennell’s prior inconsistent statement would not simply have been added
to the trial record, but it would have caused Fennell’s
testimony to be subtracted from the trial record, because, as he did when he was called upon to testify at
the Brady hearing, Fennell would have refused to

17
testify rather than face confrontation with this prior
inconsistent statement.5
IV. A PROPER BRADY ANALYSIS THAT INCORPORATES THE CONFRONTATION CLAUSE RESULT
COMPELS A FINDING OF MATERIALITY
If the exculpatory evidence had not been suppressed and had instead been disclosed to the defense
before trial, Fennell’s testimony, in one way or another, would not have been part of the case that went
to the jury.6 The proper Brady materiality analysis
asks whether there is a reasonable probability that
the outcome of a trial free from Brady suppression,
and thus free of Fennell’s testimony, would be different. The Texas Court did not conduct this analysis, it
instead allowed Fennell to mutilate the truth by
Although application of this Confrontation Clause analysis in
the Brady materiality context may often mean that no trial testimony need be disregarded, in this case it is clear that the test
requires Fennell’s trial testimony to be stricken¾there is nothing collateral about his whereabouts in the overnight hours of
April 22, and his broad refusal to testify blocked any inquiry into
the details of his direct testimony using the formerly-suppressed
prior inconsistent statement.
6 If the State desires to use Fennell’s testimony against Reed at
a retrial, it has the option of immunizing Fennell and compelling
him to submit to cross-examination, including cross-examination
about his statements to Officer Davis. If Fennell complies with
such a compulsion order, Reed’s Confrontation Clause rights
would be protected, and the Brady violation relating to the suppression of Fennell’s statements to Officer Davis would be remedied.
5

18
giving trial testimony that could not be confronted by
a proper cross-examination. In so doing, the Texas
Court’s decision conflicts with settled Brady and Confrontation Clause decisions of this Court.
CONCLUSION
For the reasons stated above, the Court should
grant the petition and vacate the conviction so that
Reed can receive a trial free from Brady and
Confrontation Clause violations.
Dated: October 28, 2019
JUSTIN S. WEDDLE
Counsel of Record
JULIA I. CATANIA
Weddle Law PLLC
250 West 55th Street
30th Floor
New York, NY 10019
212-997-5518
jweddle@weddlelaw.com
SARAH TURBERVILLE
The Constitution Project at
the Project On Government
Oversight
1100 G Street, NW
Suite 500
Washington, DC 20005
Counsel for Amicus Curiae

a
APPENDIX
Co-Chairs of the Project’s Death Penalty Committee:
Gerald Kogan
Chief Justice, Florida Supreme Court, 1987-1998;
Chief Prosecutor, Homicide and Capital Crimes Division, Dade County, Florida, 1960-1967
Mark White*
Governor, Texas, 1983-1987; Attorney General,
Texas, 1979-1983; Secretary of State, Texas, 19731977; Assistant Attorney General, Texas, 1965-1969
Beth A. Wilkinson
Special Attorney to the U.S. Attorney General, Oklahoma City bombing case, 1995-2001; Assistant U.S.
Attorney, Eastern District of New York, 1991-1995
Members:
David I. Bruck
Clinical Professor of Law and Director, Virginia Capital Case Clearinghouse, Washington and Lee University School of Law; Federal Death Penalty Resource
Counsel
William G. Broaddus
Attorney General, Virginia, 1985-1986
W.J. Michael Cody
Attorney General, Tennessee, 1998-2001

b
Mark Earley, Sr.
Attorney General, Virginia, 1998-2001; Senator, Virginia State Senate 1988-1998
O.H. Eaton, Jr.
Judge, Florida 18th Judicial Circuit, 1986-2010
John J. Gibbons*
Director and Founder, John J. Gibbons Fellowship in
Public Interest and Constitutional Law; Chief Judge,
United States Court of Appeals, Third Circuit, 19871990
Charles A. Gruber
Chief of Police, South Barrington Police Department,
1999-2008; President, International Association of
Chiefs of Police, 1990; President, Illinois Association
of Chiefs of Police, 1982
Dr. David P. Gushee
Distinguished University Professor of Christian Ethics and Director, Center for Theology and Public Life,
Mercer University
Sam D. Millsap, Jr.
District Attorney, Bexar County, Texas, 1983-1987
Sheila M. Murphy
President, Board of Directors, Illinois Death Penalty
Education Project; Presiding Judge, Illinois Sixth District, 1992-1999

c
Chase Riveland
Secretary, Department of Corrections, Washington,
1986-1997; Executive Director, Colorado Department
of Corrections, 1983-1986; Deputy Director, Wisconsin
Division of Corrections, 1980-1982; Superintendent,
Portage Correctional Institution, Wisconsin, 19801982
David A. Schwartz
President & CEO, DS Baseball LLC
William S. Sessions
Director, Federal Bureau of Investigation, 1987-1993;
Judge, United States District Court, Western District
of Texas, 1974-1987; Chief Judge, 1980-1987; United
States Attorney, Western District of Texas, 1971-1974
Darrel Stephens
Executive Director, Major Cities Chiefs Association;
Chief of Police, Charlotte-Mecklenburg Police Department, 1999-2008; Executive Director, Police Executive
Research Forum, 1986-1992
B. Frank Stokes, Jr.
Private Investigator; Special Agent, Federal Bureau
of Investigation, 1971-2001
Jennifer Thompson-Cannino
Author, activist; Member, North Carolina Innocence
Commission; Member, Advisory Committee for Active
Voices

d
Scott Turow
Author; Member, Illinois’ Executive Ethics Commission; Assistant U.S. Attorney, Northern District of Illinois, 1979-1986; Chair, Illinois State Appellate Defender’s Commission, 2002-2004
John W. Whitehead
President, The Rutherford Institute
Dr. Reginald Wilkinson
Director, Ohio Department of Rehabilitation and Correction (DRC), 1991-2006; DRC employee, 1973; President, American Correctional Association; Vice Chair
for North America, International Corrections and
Prison Association; President, Ohio Correctional and
Court Services Association; Founder, Ohio chapter,
National Association of Blacks in Criminal Justice
Michael Wolff
Dean, Saint Louis University School of Law; Judge,
Supreme Court of Missouri, 1998-2011; Chief Justice,
2005-2007
Rev. Dr. Aidsand F. Wright-Riggins III
Executive Director, American Baptist Home Mission
Societies, American Baptist Churches, USA
*since deceased

